No. 20-

 

IN THE
SUPREME COURT OF THE UNITED STATES

 

CORDARRIUS BONDS,
Petitioner,
vs.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE

The undersigned hereby certifies that a true and exact copy of the enclosed
Motion for Leave to Proceed in Forma Pauperis Petition and Petition for a Writ of
Certiorari has been served upon the Solicitor General of the United States, Room
5614, Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, DC
20530-0001, and upon Assistant United States Attorney Brian Samuelson, 800
Market Street, Suite 211, Knoxville, TN 37902, by placing a true and exact copy of

said Motion and Petition in the United States Mail, with sufficient postage to carry
the same to its destination.

This the 12th day of November, 2020.

( ee 5 NILES COFFIN

Assistant Federal Defender
Federal Defender Services

of Eastern Tennessee, Inc.
800 South Gay Street, Suite 2400
Knoxville, Tennessee 37929
(865) 637-7979
